Audit of USAID/Guatemala’s Management
 of P.L. 480 Title II Commodity Losses


        Audit Report No. 1-520-00-001-P
               January 21, 2000




        Regional Inspector General
              San Salvador
                  U.S. A GENCY FOR
                  INTERNATIONAL
                   DEVELOPMENT

                  RIG/San Salvador


                  January 21, 2000


                  MEMORANDUM

                  FOR:               USAID/Guatemala Director, George Carner

                  FROM:              Acting RIG/A/San Salvador, Steven H. Bernstein

                  SUBJECT:           Audit of USAID/Guatemala ’s Management of P.L. 480
                                     Title II Commodity Losses (Report No. 1-520-00-001-P)

                  This memorandum is our report on the subject audit. In finalizing the
                  report, we considered your comments on the draft report. Your comments
                  on the draft report are included in Appendix II.

                  This report contains two recommendations for your action.            A
                  management dedicion will be reached when the mission provides a plan of
                  action to implement the recommendations.

                  I appreciate the cooperation extended to my staff during the audit.



     Background   The Public Law 480 Title II food program for Guatemala is designed to
                  improve food security among poor rural families through a combination of
                  community level activities. It has provided food for distribution to over
                  200,000 designated beneficiaries, food for victims of Hurricane Mitch in
                  1998-99, and food for local sale (monetization) to fund several
                  development     projects    and     program      implementation     costs.
                  USAID/Guatemala managed this food program through four cooperating
                  sponsors in Guatemala:        Cooperative for Assistance and Relief
                  Everywhere (CARE), Catholic Relief Services (CRS), SHARE




Page 1 of 17                                                  Audit Report No. 1-520-00-001-P
                               Association of Guatemala 1 , and Feed the Children (FTC)2 . In fiscal years
                               1997, 1998, and 1999, the value of the food commodities was about $11
                               million, $16 million, and $16 million respectively, excluding the value of
                               the emergency food. 3

                               By quantity, about 82,000 metric tons (or 82 million kilograms) of P.L.
                               480 Title II food commodities was received in Guatemala from October
                               1996 to March 1999. 4 Of this total, about 58 percent of the food was sold
                               (i.e., monetized), 36 percent was distributed, and the remainder was
                               distributed for the Mitch emergency. With regard to cooperating sponsors,
                               the largest amounts of food went to CARE (49 percent); CRS (38 percent);
                               and SHARE (10 percent).

                               The food was delivered as follows. The U.S. Department of Agriculture
                               and USAID’s Bureau of Humanitarian Response/Office of Food for Peace
                               (BHR/FFP) arranged for food shipments from the United States, usually
                               by ocean vessels. For the Mitch emergency, some food arrived by air.
                               Food for monetization arrived at Puerto Quetzal, where upon offloading
                               from a vessel the buyer immediately took possession. Food for
                               distribution arrived at Puerto Santo Tomas in sealed containers, except in a
                               few instances. Then a cooperating sponsor would take possession and
                               arrange for a trucking company to transport the food to its warehouse.
                               From the warehouse, a trucking company would transport the food to
                               recipient agencies for two cooperating sponsors. For the other two
                               cooperating sponsors, the recipient agencies would go to the cooperating
                               sponsor warehouses for the food. Next, the recipient agencies would
                               provide the food to individuals and/or to the recipients' or communities’
                               distribution centers, which would ration food to individuals.

                               Moving food commodities from the port to the recipients has involved
                               many participant organizations since October 1996 as shown in the
                               following table.




1
  This organization operated as the Guatemala office of World SHARE, Inc. until October 1999, when it became an
independent organization and thus subrecipient of World SHARE, Inc.
2
  FTC’s participation ended September 30, 1999.
3
  Unaudited data.
4
  Unaudited data.


Page 2 of 17                                                                 Audit Report No. 1-520-00-001-P
                     Organizations                      CARE   CRS             FTC     SHARE
               Port Authority                               2      2               2         2
               Truck Company from Port                      1      1               1         1
               Warehouse       a)                           1      1               1         3
               Truck Co. from Warehouse                     1      1           none     none
               Recipient Agencies                          38      6              60       25
               Distribution Centers                       387 b) 437              67      333


               Note:   Unaudited data from cooperating sponsors.
               a)      Other third parties may become involved, e.g., warehouse owner, insurance
                       company, and security company.
               b)      CRS had 633 additional distribution centers to handle food for the Mitch
                       emergency.

               To regulate this food program, USAID has Regulation 11, also known as
               22 CFR Part 211. Regulation 11 defines losses and describes actions to be
               taken on losses.

               Food losses can occur for various reasons, such as shrinkage due to low
               humidity, spillage from torn bags of grain and compressed cans of oil,
               damage due to wetness, and other causes. But, food losses in Guatemala
               were minimized by using 40-foot containers that remained sealed from the
               U.S. port to the cooperating sponsor’s warehouse and by limiting the
               rebagging of food at cooperating sponsor warehouses to cases where
               damaged or torn bags were found.

               Reimbursements for food losses are made to the U.S. Government. For
               example, a typical category of loss is ocean loss, which occurs aboard a
               vessel transporting the commodities. In this instance, the U.S. Department
               of Agriculture (USDA) files a claim against the shipping company, except
               for CARE and CRS which file their own claims. To substantiate a claim,
               the surveyor's report on commodities delivered is a key document and is
               contracted by USDA’s Commodity Credit Corporation and/or the
               responsible cooperating sponsor. The cooperating sponsor’s in-country
               office has related responsibilities, such as the transmittal of all support
               documents for the ocean loss claim and the removal of damaged
               commodities which may include a health certificate of unfitness for human
               consumption and eventual sale or destruction.

               To manage the P.L. 480 Title II program including food losses,
               USAID/Guatemala assigned one full-time local national as program
               manager, under the direction of the office director for its strategic
               objective on income and natural resources. Staff support is provided on a
               part-time basis (10 to 25 percent) by four local professional employees
               and a secretary.


Page 3 of 17                                                 Audit Report No. 1-520-00-001-P
                       USAID/BHR/FFP issued cables in 1998 and 1999 which basically
                       reminded missions of their responsibilities for Title II commodities.
                       These responsibilities include tracking commodity losses, claims for
                       losses, and other actions.



     Audit Objective   The audit was conducted as part of the Office of the Regional Inspector
                       General/San Salvador’s fiscal year 1999 audit plan. The audit was
                       designed to answer the following question:

                       §      Did USAID/Guatemala manage losses of P.L. 480 Title II
                              food commodities in accordance with USAID regulations
                              and supplemental guidance?

                       The audit scope and methodology are presented in Appendix I.




     Audit Findings    Did USAID/Guatemala manage losses of P.L. 480 Title II food
                       commodities in accordance with USAID regulations and
                       supplemental guidance?

                       USAID/Guatemala appropriately managed its P.L. 480 Title II food
                       commodity losses in accordance with Regulation 11 and supplemental
                       guidance.

                       We examined USAID/Guatemala’s management of losses of P.L. 480 Title
                       II food commodities for three factors that we considered significant. Those
                       three factors were the mission’s tracking system for commodity losses, its
                       written guidance provided to cooperating sponsors, and its actions on
                       reported commodity losses. We weighed those factors for the mission’s
                       compliance with relevant laws and regulations and for reasonable controls,
                       especially in response to losses reported by the cooperating sponsors and the
                       amount of such reported losses. Thus, based on our judgmental samples (see
                       Methodology section for details of selection) our conclusion was a positive
                       assurance on USAID/Guatemala’s management of commodity losses.
                       During our audit, we visited all four cooperating sponsors to verify the
                       mission’s efforts. We found other matters that would help the mission
                       manage its program in the event that losses materially increase: cooperating
                       sponsors could improve their quarterly loss reporting and their monitoring of
                       their recipient agencies and distribution centers, about which we issued two
                       recommendations.



Page 4 of 17                                                      Audit Report No. 1-520-00-001-P
               In a June 8, 1999 cable, the mission informed BHR/FFP that it has a
               tracking system to track food loss reports and claims for losses filed by
               cooperating sponsors. The mission also stated that it systematically
               reviews the quarterly commodity status reports submitted by cooperating
               sponsors. The mission's tracking system is the cooperating sponsors'
               quarterly commodity status reports and loss lists. Review and analysis of
               such submissions were performed, as indicated by mission documents on
               individual losses and on unfit food. Also, the mission formally instructed
               cooperating sponsors by providing copies of the BHR/FFP cables and a
               letter dated June 1999. The mission letter included a noteworthy
               instruction that the cooperating sponsor make a statement on no loss when
               there was none—a positive statement that there was nothing to report.

               The following table shows the reported losses in kilograms from October
               1996 through March 1999. Total reported food losses for two and a half
               years were 220,839 kilograms, of which 77 percent was ocean loss. So,
               in-country losses were 50,142 kilograms—or .06 percent of about 82
               million kilograms received.

                  Category of Loss             CARE            CRS           FTC             SHARE
               Ocean                             60,914 a)      99,556         4,000           6,227
               Port                                               1,474
               Coop.Sp.Warehouse                                    265              1         3,971
               Transit                                            6,142
               Recipient Agencies                                 4,105                  b)   33,984
               Distribution Centers                                 200
                  Total (kg):                    60,914        111,742         4,001          44,182

               Note: Unaudited data from cooperating sponsors’ quarterly loss reports.
               a)    Included loss due to pilferage at the port.
               b)    Combined amount for both recipient agencies and distribution centers.

               Not included in the preceding table for the 30-month period are two major
               food losses, which occurred outside the October 1996 to March 1999
               period. One involved mission actions during the 30-month period and the
               other was more recent, but both demonstrated a high degree of mission
               involvement when significant food losses were discovered. The two
               losses were: a series of commodity thefts (150,095 kilograms) and arrival
               of unfit commodities (494,000 kilograms) for monetization.

               In May 1996, SHARE detected an employee's theft of $79,648 worth of
               commodities (which began in 1994 and totaled 150,095 kilograms) and
               $508 of program income from a distribution center. The mission notified


Page 5 of 17                                                    Audit Report No. 1-520-00-001-P
               the Office of Inspector General and the local police and approved a
               SHARE contract for an immediate local investigation. This investigation
               provided substantial evidence to bring the former employee to trial.
               SHARE officials are dedicated to the prosecution of offenders (which was
               still in process for the former employee as of September 1999) in order to
               have criminal convictions serve as a strong deterrent against such food
               losses. In June 1998, the mission with BHR/FFP’s concurrence issued a
               bill of collection for $80,000 in spite of SHARE’s objection. Regulation
               11 requires payment in U.S. dollars. However, a BHR/FFP and SHARE
               agreement provided for payment via an offset for a SHARE project funded
               with non-U.S. Government resources to assist poor Guatemalan families
               affected by Hurricane Mitch. From 1996 on, the mission reviewed the
               changes in SHARE's weak food controls and audit reports for deficiencies
               in its food program. In 1999, the mission began monitoring the SHARE
               new Mitch project for compliance with the BHR/FFP agreement.

               In May 1999, a local buyer told CRS that an entire commodity shipment
               of 20 million kilograms for monetization would be refused because of bad
               odor and visible signs of rotten commodities. The shipment was to
               provide over $2 million of local currency for development projects.
               Besides the buyer’s refusal, the mission and CRS dealt with various
               adverse factors, mainly: the first laboratory test indicated that the entire
               shipment was unfit for human consumption, the Guatemalan Ministry of
               Agriculture would not allow unfit food to be unloaded, and the vessel
               owner could seize the entire cargo if there was no unloading. (Afterwards,
               the owner filed a suit for $300,000.) Also, the mission coordinated with a
               U.S. Department of Agriculture team sent on-site to witness the damaged
               food and with BHR/FFP. Under mission oversight, the commodities were
               unloaded about a month later, 494,000 kilograms of unfit commodities
               were buried and guarded to prevent theft, the remaining food was sold,
               and a loss claim was filed against the shipping company with claim
               proceeds to be deposited with the U.S. Government.

               Although mission's management of commodity losses was appropriate, the
               mission should expand its management system for commodity losses in
               two respects: quarterly loss reports and reasonable assurance on food
               care.

               Quarterly Loss Reports Should Be Expanded to
               Ensure Consistent Data and to Detect Loss Patterns

               Although the total amount of food losses was relatively small, cooperating
               sponsors’ quarterly loss reports were inconsistent. With consistent data in
               accordance with Regulation 11, the mission’s tracking system for food
               losses would provide the ability to compare loss data among the
               cooperating sponsors. Also, the cooperating sponsors had insufficient data


Page 6 of 17                                              Audit Report No. 1-520-00-001-P
               that were not readily available. With sufficient data the mission could use
               its tracking system of quarterly loss reports to detect a pattern in losses, as
               described in the introduction to Regulation 11 in principal change no. 34.
               Although the mission provided guidance, more detailed guidance could
               improve cooperating sponsors’ reporting. Therefore, the mission should
               issue detailed guidance on quarterly loss reports and a data collection
               system.

               The audit found various indications of inconsistent quarterly loss
               reporting. First, the table on page 5 on reported quarterly losses shows
               major differences in losses among the cooperating sponsors for each
               category, in light of the differences in the amount of commodities received
               by each cooperating sponsor. For example, a comparison of reported
               warehouse losses showed losses of zero kilograms by CARE, 265
               kilograms by CRS, and 3,971 kilograms by SHARE. Yet, their respective
               portions of commodities received were 49, 38, and 10 percent, with FTC
               receiving over 2 percent. In other words, it is unlikely that CARE had
               zero kilograms of warehouse losses when it received 49 percent of the
               commodities and the same appears unlikely for CRS.

               Second, there were unreported losses. For example, CARE and FTC
               reported almost no losses in their own warehouses. But, both said they
               probably had minor warehouse losses. FTC’s records showed several
               minor warehouse losses, such as 18 kilograms and 143 kilograms. CARE
               had records on two transit (or truck) losses of 11,869 kilograms and
               18,855 kilograms that were not reported and had sometimes under-
               reported its ocean losses by not counting the damaged food in the
               shipment. Also, CARE did not report losses of recipient agencies and
               distribution centers because CARE considered these losses to be their
               responsibility and not CARE’s.

               SHARE had not reported losses by recipient agencies and distribution
               centers since January 1998. Its records showed such losses totaling
               62,810 kilograms through March 1999. FTC reported no such losses and
               received 3 percent of the food for distribution, but its records showed
               seven such losses, e.g., 550 kilograms and 1,436 kilograms. Since
               SHARE and FTC received 25 percent of the food for distribution and
               SHARE had 89 percent of reported losses by recipient agencies and
               distribution centers of all cooperating sponsors, CARE and CRS may have
               under-reported losses by their recipient agencies and distribution centers.

               Third, there was a lack of information on actions taken on losses. An
               action could be filing a claim against a third party, legal action against a
               person or organization, receipt of a claim payment, deposit of a claim
               payment less administrative cost at the U.S. Embassy, request for mission
               approval to sell or destroy unfit food, request for mission approval to take


Page 7 of 17                                                Audit Report No. 1-520-00-001-P
               no action, or even no action for an allowable reason specified in
               Regulation 11.

               None of the cooperating sponsors stated what actions they took on each
               loss in their quarterly loss reports, although they did communicate with the
               mission on some individual losses. For example, CARE filed food loss
               claims against its trucking contractor for a 11,869 kilogram loss in August
               1997 valued at $4,880 and a 18,855 kilogram loss in February 1999 valued
               at $8,342. Both the losses and the actions taken were not stated in
               CARE’s quarterly loss reports. Later, CARE deposited the February claim
               payment less administrative costs at the U.S. Embassy a week after the
               audit team’s inquiry. CARE could not say what happened to the earlier
               claim, as of September 1999.

               Another example involved action taken on damaged food.                   The
               cooperating sponsors obtained a local health authority’s certificate that the
               damaged food was unfit for human consumption. Then they requested
               mission’s approval to sell or destroy the unfit food, especially if the value
               was $500 or more. But, these actions were not cited in the quarterly loss
               reports nor what happened to the unfit food. For example, CARE sold its
               damaged unfit food and CRS incinerated its damaged unfit food. CARE
               did inform the mission of some individual sales and respective deposits of
               sales proceeds at the U.S. Embassy, but did not cite any of these actions in
               its quarterly loss reports. Nevertheless, the quarterly reporting of all
               losses and actions taken on losses is required by Regulation 11.

               Fourth, the quarterly loss reports lacked the estimated value of losses, with
               one exception. CRS began reporting the dollar value of losses on its
               October-December 1997 report. Otherwise, the cooperating sponsors did
               not report the value of losses in their quarterly loss reports.

               Regulation 11 describes the quarterly loss reports, actions to be taken on
               losses, and the reason for requiring loss reporting. Specifically, section
               211.9(f) requires that the cooperating sponsor provide a quarterly report
               regarding any loss, damage or misuse of commodities on: each individual
               loss, the estimated value of the loss, the action taken for recovery or
               disposal of a loss, and additional data for a loss valued at $500 or more.
               Section 211.9(d) provides that the cooperating sponsor pays for all losses,
               regardless of dollar value, if the loss is due to negligence on the part of the
               cooperating sponsor. Section 211.9(e) requires for a loss due to the fault
               of others and valued at $500 or more that the cooperating sponsor file a
               claim, make three demands, and take legal action. If the cooperating
               sponsor decides not to take legal action, it must notify the mission for
               review and approval. Section 211.9(g) requires all commodity claim
               proceeds to be deposited with the U.S. Embassy and recovered monetized
               proceeds and program income to be deposited into the account for


Page 8 of 17                                                Audit Report No. 1-520-00-001-P
               monetized proceeds and to be used for program purposes.                  The
               introduction to Regulation 11 contains principal change no. 34, which
               explains, in regard to section 211.9(f), that the mission has a responsibility
               to know the amount of commodities that have been delivered to
               beneficiaries and the amount that has been lost, damaged, or misused,
               which might show patterns suggesting larger problems.

               The audit found that the cooperating sponsors’ quarterly loss reports not
               only contained inconsistent loss data, but also lacked sufficient data for the
               mission to detect patterns. As the table on page 2 shows, there were
               hundreds of recipient agencies and distribution centers. Although SHARE
               reported the losses by its recipient agencies and distribution centers and
               had the most (i.e., 89 percent of this category of loss), its quarterly reports
               only gave the total amount without further data to enable the mission to
               detect patterns. One reason was that SHARE’s system of records did not
               provide ready access to the food receipt, distribution, and loss history for
               each recipient agency and each distribution center. SHARE said that to
               analyze a pattern at an organization it would need to visit the responsible
               recipient agency to obtain additional data on the food movement.
               However, SHARE did have a system of monthly loss reports from each
               recipient agency.

               The mission did provide guidance to the cooperating sponsors. Such
               guidance consisted of copies of the BHR/FFP cables issued in 1998 and
               1999 and a mission letter dated June 1999. The letter included a
               noteworthy instruction that the cooperating sponsor make a statement on
               no loss where there was none. However, the cooperating sponsors
               submitted quarterly reports that contained inconsistent loss data, as
               indicated in the preceding paragraphs, and that lacked sufficient data to
               detect a pattern in losses.

               To detect patterns through the quarterly loss reports, the mission will need
               more data and more consistent data than are currently provided in the
               cooperating sponsors' quarterly loss reports. But, a quarterly loss report
               listing each loss for several hundreds of organizations would obviously be
               unwieldy. The mission should consider a shortened version of a quarterly
               loss report and the ability of a cooperating sponsor to provide ready data
               on each participant organization in order to detect patterns. The mission's
               policies for the food program, expressed in its Food Aid Management
               Plan, stated that the cooperating sponsors could provide a total for all
               losses under $500 on the quarterly status reports. While a step towards
               avoiding unwieldy reports, the mission should consider whether
               cooperating sponsors should report such losses under $500 by subtotals for
               each responsible organization or natural groups of similar organizations.




Page 9 of 17                                                Audit Report No. 1-520-00-001-P
                       Recommendation         No.    1:     We     recommend       that
                       USAID/Guatemala issue detailed guidance to the implementing
                       organizations under its Public Law 480 Title II food
                       commodity program on (a) preparing their quarterly loss
                       reports which would include listing every loss within defined
                       guidelines, the dollar value of each loss, actions taken, and
                       other relevant data and (b) establishing a system for obtaining
                       readily accessible data on food losses at each recipient agency,
                       distribution center, and third party.

                Assessments on Proper Storage, Care, and
                Handling of Food Commodities Should Be Made

                The mission determines whether an organization must pay for a food loss
                and to do this, it needs to know if the organization acted responsibly, as
                stated in Regulation 11. However, the mission lacked formal assessments
                on the storage, care, and handling of commodities by participating
                organizations, which should be addressed in mission policies, and also a
                list of necessary measures to safeguard food in Guatemala. Instead, it
                relied on site visits without a checklist of necessary measures and relied on
                USAID headquarters to communicate deficiencies stated in annual audit
                reports on the cooperating sponsors. Without an assessment, the mission
                cannot be assured that the cooperating sponsor properly stores, cares, and
                handles commodities and adequately supervises commodity care by its
                recipient agencies and distribution centers. As a result, the responsible
                organization can refuse to pay for food losses.

                Two situations arise with food losses where an assessment of proper
                storage, care, and handling of commodities is needed. First, Regulation
                11, section 211.9(d) states that a cooperating sponsor shall pay for
                commodity loss if the cooperating sponsor causes the loss through any act
                or omission or failure to provide proper storage, care, and handling, unless
                the mission determines that the loss could not have been prevented by
                proper exercise of the cooperating sponsor’s responsibility. Second,
                section 211.3(c)(2) states that the cooperating sponsor’s agreement with a
                recipient agency shall require the recipient agency to pay for a commodity
                loss which results from its failure to exercise reasonable care.

                Mission policies, as expressed in its Food Aid Management Plan as
                Mission Order 9.1, addressed audits and mission staff visits to review a
                cooperating sponsor’s systems. But, they did not address how the mission
                would implement its responsibility to assess proper storage, care, and
                handling of commodities by cooperating sponsors, recipient agencies, and
                distribution centers. For example, the mission order could offer options
                for performing assessments, such as mission staff site visits and audits.
                The mission order could also list the necessary measures to safeguard food


Page 10 of 17                                              Audit Report No. 1-520-00-001-P
                                   in Guatemala. A site visit could utilize a checklist on various measures
                                   (against theft, insects, rodents, and others) and on various controls (e.g.,
                                   supervisory visits and internal audits). A site visit would use the checklist
                                   to assess the two responsibilities of the cooperating sponsor: care of food
                                   under its direct control and supervision of food care by recipient agencies
                                   and distribution centers. In addition, if the mission opts to utilize audits,
                                   then the contract with an audit firm should include a review of food care
                                   and a statement in the audit report on the results of that review.

                                   The mission acknowledged that it had made no formal assessment of
                                   cooperating sponsors’ storage, care, and handling of food and supervision
                                   of food care by their recipient agencies and distribution centers. Instead, it
                                   relied on staff site visits that did not include formal assessments and relied
                                   on USAID headquarters to communicate deficiencies stated in annual
                                   audit reports conducted in accordance with U.S. Office of Management
                                   and Budget’s (OMB) Circular A-133. USAID headquarters had not
                                   notified the mission of any deficiencies in the cooperating sponsors’ food
                                   program included in A-133 audit reports.

                                   Reliance on A-133 audit reports is not advisable because the auditors are
                                   not explicitly required to assess food care. Also, if the auditors do assess
                                   food care, they may not report deficiencies in the audit report and instead
                                   report them in their management letter. The reason for this situation is
                                   because OMB’s compliance supplement for A-133 audits of various
                                   federal programs contains no audit guidance for the P.L. 480 Title II food
                                   program, until the compliance supplement was revised in April 1999.

                                   Although the mission did not have any audit reports on CARE, CRS, and
                                   FTC after fiscal year 1996, the mission had audit reports on World
                                   SHARE for its fiscal years ending June 30, 1997 and 1998. SHARE said
                                   that the audits involved U.S. auditors' visit to the SHARE office in
                                   Guatemala, use of a local audit firm, and no management letter for the
                                   Guatemala office. The audit reports indicated no deficiencies with
                                   controls and compliance in SHARE's P.L. 480 Title II commodity
                                   program. 5 Further, the audit reports did not make any direct statement
                                   about any visit to Guatemala or elsewhere. Furthermore, the audit reports
                                   made no statement about SHARE’s proper storage, care, and handling of
                                   commodities and SHARE's supervision of recipient agencies' and
                                   distribution centers’ reasonable care of commodities.



5
  Coincidentally, the A-133 audit report on World SHARE for its fiscal year 1995 did not report on the control weakness in
its Guatemala office, which involved too many overlapping authorities held by the former employee responsible for the series
of thefts that occurred from December 1994 to April 1996. The subsequent A-133 audit report did cite the theft as an
immaterial instance of noncompliance, but did not identify any control weakness.


Page 11 of 17                                                                         Audit Report No. 1-520-00-001-P
                Although the annual audits disclosed no deficiencies, this audit found
                indications of cooperating sponsors’ possible deficient food care that may
                require an assessment of the adequacy of their food care by the mission in
                order to determine whether the cooperating sponsor should pay for the
                food loss. One example was a CRS report on a loss of 154 kilograms of
                vegetable oil ($139). The report explained that due to the lack of physical
                space the cans of vegetable oil were stacked higher than usual and the
                pressure caused the lower cans to leak. Another example was a SHARE
                loss of two bags of rice weighing 300 kilograms ($154). A SHARE record
                explained that the loss occurred somewhere in either one of its two
                warehouses or during the movement of food between them.

                This audit also found two areas where the cooperating sponsors’
                supervision of food care by recipient agencies and distribution centers may
                require an assessment by the mission. First, cooperating sponsors had
                different policies on when they would perform a follow-up on a loss
                reported by their recipient agency or distribution center. For example,
                SHARE’s policy was to accept losses of three percent for rice, corn soy
                blend, and beans, five percent for corn, and two percent for oil. By
                contrast, CRS policy is five percent for all types of commodities, except
                no minimum for losses by a transit (or truck) company. Second,
                cooperating sponsors had records on food losses by recipient agencies and
                distribution centers, but these records did not address whether the
                organization with the loss practiced reasonable care of the food. For
                example, a SHARE record showed one recipient agency reported loss of
                609 kilograms of rice ($256) at a community distribution facility due to
                decomposition caused by rain. Another example was a CRS loss report
                which disclosed a theft of 793 kilograms or 36 cans of vegetable oil
                ($775) at a recipient agency’s warehouse. The recipient agency reported
                the break-in to the local police and decided to use another warehouse.

                To determine whether a cooperating sponsor should pay for its food losses
                and whether a cooperating sponsor properly determines if food losses by
                recipient agencies or communities' distribution centers should be paid, one
                factor is the proper care, storage, and handling of food. The mission
                should ensure that commodities are cared for properly.

                       Recommendation No. 2:                 We     recommend       that
                       USAID/Guatemala revise its policies and procedures
                       concerning food losses to reasonably ensure that implementing
                       organizations under its Public Law 480 Title II food
                       commodity program (a) properly store, care, and handle
                       commodities, and (b) have an adequate system for monitoring
                       food care by their recipient agencies and distribution centers.




Page 12 of 17                                             Audit Report No. 1-520-00-001-P
   Management       In response to the draft audit report, the Mission agreed with this report
   Comments and     and recommendations.
   Our Evaluation
                    USAID/Guatemala’s comments are reproduced in Appendix II.




Page 13 of 17                                                   Audit Report No. 1-520-00-001-P
                                                                                   Appendix I
                                                                                   Page 1 of 3


   Scope and     Scope
   Methodology
                 We audited USAID/Guatemala’s management of P.L. 480 Title II
                 commodity losses in accordance with generally accepted government
                 auditing standards. The fieldwork was conducted in September 1999 at
                 USAID/Guatemala and the four participating organizations (or cooperating
                 sponsors) in the mission’s food program, namely, CARE/Guatemala,
                 CRS/Guatemala, FTC/Guatemala, and SHARE Association of Guatemala.
                 Our audit work was limited to the food commodity losses identified in the
                 tracking system of USAID/Guatemala for fiscal years 1997, 1998, and the
                 first half of fiscal year 1999 and mission actions since fiscal year 1997.

                 The audit was not intended to determine whether the exact amount of all
                 food losses had been identified and reported to USAID/Guatemala and
                 whether participating organizations were managing their food commodity
                 losses in accordance with Regulation 11. We did not visit any port,
                 trucking company, cooperating sponsors’ warehouses, recipient agencies,
                 or distribution centers to review their processes regarding the receipt and
                 distribution of commodities nor did we review the documentation
                 supporting distribution of the commodities from the warehouses to
                 recipients.

                 According to the available records, P.L. 480 Title II food commodities in
                 Guatemala totaled 81,974 metric tons for the 30-month period and the
                 reported food losses totaled about 221 metric tons or .27 percent (that is,
                 about a quarter of one percent). USAID/Guatemala estimated the value of
                 the food commodities, excluding the food for emergency, at about $42
                 million for the three fiscal years. So, the value of the reported food losses
                 was approximately $121,000.

                 The reported categories of losses were: ocean losses by maritime shipping
                 companies, port losses by port authorities, transit losses by trucking
                 companies transporting from the port to cooperating sponsor’s warehouses
                 and from warehouse to recipient agencies, warehouse losses by cooperating
                 sponsors, recipient agency losses, and distribution center losses.

                 Since claims against maritime shipping companies for ocean losses were
                 pursued in the United States (by the U.S. Department of Agriculture for all
                 cooperating sponsors except for CARE and CRS, which pursued their own
                 claims), we did not review collections and remittances for ocean losses.




Page 14 of 17                                               Audit Report No. 1-520-00-001-P
                                                                                  Appendix I
                                                                                  Page 2 of 3

                Methodology

                To answer the audit objective, we interviewed responsible
                USAID/Guatemala officials and reviewed mission food program files. We
                focused on the mission’s tracking system for food losses reported by
                participating organizations, the mission’s guidance sent to cooperating
                sponsors, and the mission’s actions on reported food losses. After the
                mission identified its tracking system as the cooperating sponsors’
                quarterly loss reports kept in mission files, we used the loss data of those
                reports covering October 1996 through March 1999 as our universe. For
                mission actions on losses, we considered such actions from October 1996
                through September 1999.

                We drew judgmental samples because the number of individual losses was
                small and the need to review each category of losses outweighed the need
                for a representative analysis. Also, we found only several mission records
                on actions taken on individual losses, which we wanted to include in our
                sample. We tried to select ten individual losses for each cooperating
                sponsor on the basis of (a) at least one relatively large loss from each
                category of loss cited in the quarterly loss reports and (2) individual losses
                discussed in mission records. These samples were for our visits with each
                cooperating sponsor. The purpose of these samples was to test whether the
                mission’s tracking system had adequately captured loss data as reported by
                each cooperating sponsor. No sample was taken for one cooperating
                sponsor because it reported only two losses, one of which was a loss of one
                kilogram. We reviewed the other loss and performed other tasks as
                described below. See the next-to-last paragraph in this section for the size
                of each sample.

                We obtained an understanding of mission management controls relevant to
                the management of food commodity losses. We reviewed mission policies,
                its control assessments for the prior two fiscal years, its organizational
                chart, mission reviews on the cooperating sponsors, available external audit
                reports on the cooperating sponsors, and interviews with responsible
                mission officials. We assessed the adequacy of management controls.

                We considered the laws and regulations significant to the audit, including
                Regulation 11. We assessed the vulnerability of the mission program for
                the probability that significant noncompliance could occur and not be
                prevented by management controls. That is, we assessed the risk that
                noncompliance resulting from illegal acts could occur and have a
                significant effect on the audit objective. Although not directly related to
                the audit, we looked for indications of significant noncompliance by the
                cooperating sponsors.




Page 15 of 17                                              Audit Report No. 1-520-00-001-P
                                                                                  Appendix I
                                                                                  Page 3 of 3


                After we visited the mission, we visited each cooperating sponsor. We
                held discussions with their management and responsible staff. Our
                principal interest was to verify mission’s efforts with the cooperating
                sponsors. So, we discussed mission’s management controls, such as
                written guidance, site visits, and audits of their food program, and their
                responsibilities for food distribution from arrival in Guatemala to sale to
                buyers or rationing to beneficiaries. We also discussed the cooperating
                sponsor’s quarterly loss reports and the actions on losses, and then
                reviewed the cooperating sponsors’ records for our sample of losses and for
                related items of interest surfaced in our discussion. Thus, we obtained
                documentary verification of mission efforts and other information, which
                led to two other matters and recommendations presented in the body of this
                report.

                Our universe and sample at each cooperating sponsor were, as follows:

                 CARE        Universe, reported losses of 60,914 kilograms.
                             Sample, 10 losses, 77,354 kilograms (which included 44,453
                             kilograms of ocean losses that were not reported).

                 CRS         Universe, reported losses of 111,742 kilograms.
                             Sample, 12 losses, 44,291 kilograms.

                 FTC         Universe, reported losses of 4,001 kilograms.
                             Sample, none.

                 SHARE       Universe, reported losses of 44,182 kilograms
                             Sample, 9 losses, 10,629 kilograms.

                We did not verify any totals, as noted in the audit report. However, we did
                verify that cooperating sponsors had supporting documents for the losses in
                our samples. We were not able to obtain consistent dollar values for all food
                losses and thus could not verify dollar values.




Page 16 of 17                                              Audit Report No. 1-520-00-001-P
                                     Appendix II
                                      Page 1 of 1




Page 17 of 17   Audit Report No. 1-520-00-001-P
